            DEPARTMENT OF HEALTH AND HUMAN SERVICES                               Office of Inspector General
                                                                                   Office of Audit Services

                                                                                        REGION IV
                                       SEP 1 5 2008                         61 Forsyth Street, S.W., Suite 3T41
                                                                                 Atlanta, Georgia 30303




Report Number: A-04-07-0l047

Donald E. Williamson, M.D.
State Health Officer
Alabama Department of Public Health
RSA Tower, Suite 1552, Monroe Street
P.O. Box 303017
Montgomery, Alabama 36130 - 3017

Dear Dr. Williamson:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of
Inspector General (OIG), final report entitled "Allowability of Costs Claimed for
Reimbursement Under Alabama's Bioterrorism and Emergency Preparedness Programs for
the Period August 31, 2004, Through August 30,2006." We will forward a copy of this
report to the HHS action official noted on the following page for review and any action
deemed necessary.

The HHS action official will make final determination as to actions taken on all matters
reported. We request that you respond to this official within 30 days from the date ofthis
letter. Your response should present any comments or additional information that you
believe may have a bearing on the final determination.

Pursuant to the principles of the Freedom ofInformation Act, 5 U.S.C. § 552, as amended
by Public Law 104-231, OIG reports generally are made available to the public to the
extent the information is not subject to exemptions in the Act (45 CFR part 5).
Accordingly, the final report will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me,
or contact John T. Drake, Audit Manager, at (404) 562-7755 or through e-mail at
John.Drake@oig.hhs.gov. Please refer to report number A-04-07-0l047 in all
correspondence.

                                             Sincerely,



                                             Peter J. Barbera
                                             Regional Inspector General
                                              for Audit Services

Enclosure
Page 2 - Donald E. Williamson, M.D.

Direct Reply to HHS Action Official:

Gary Teague, Acquisition & Assistance Analyst
Office of Policy, Oversight, and Evaluation
Centers for Disease Control and Prevention
Procurement and Grants Office (MS E-14)
2920 Brandywine Road, Room 1122
Atlanta, Georgia 30341
Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   ALLOWABILITY OF COSTS
 CLAIMED FOR REIMBURSEMENT
      UNDER ALABAMA'S
      BIOTERRORISM AND
  EMERGENCY PREPAREDNESS
  PROGRAMS FOR THE PERIOD
  AUGUST 31, 2004, THROUGH
       AUGUST 30, 2006




                    Daniel R. Levinson
                     Inspector General

                     September 2008
                     A-04-07-01047
                    Office ofInspector General
                                     http:// oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance ofHHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS programs
and operations. These assessments help reduce waste, abuse, and mismanagement and promote
economy and efficiency throughout HHS.

Office ofEvaluation and Inspections

The Office of Evaluation and Inspections (OEl) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
Specifically, these evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness in departmental programs. To promote impact, the
reports also present practical recommendations for improving program operations.

Office ofInvestigations

The Office of Investigations (01) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of 01 lead to criminal convictions, administrative
sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
in OIG's internal operations. OCIG imposes program exclusions and civil monetary penalties on
health care providers and litigates those actions within HHS. OCIG also represents OIG in the
global settlement of cases arising under the Civil False Claims Act, develops' and monitors
corporate integrity agreements, develops compliance program guidances, renders advisory
opinions on OIG sanctions to the health care community, and issues fraud alerts and other
industry guidance.
                           Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                EXECUTIVE SUMMARY

BACKGROUND

Under sections 301,317, and 319 ofthe Public Health Service Act, the Centers for Disease
Control and Prevention (CDC) provides funds to State and major local health departments to
improve preparedness and response capabilities for bioterrorism and other public health
emergencies. From August 31, 1999, to August 30,2005, CDC provided this funding through
the Public Health Preparedness and Response for Bioterrorism Program. Since August 31,
2005, CDC has provided funding through the Public Health Emergency Preparedness
Program. We refer to these two programs collectively as "the Program."

In Alabama, the Department of Public Health (the State agency), administers the Program.
For the period August 31, 2004, through August 30, 2006, the State agency claimed program
reimbursement totaling $31.5 million.

OBJECTIVE

The objective of our audit was to determine whether the costs that the State agency claimed
for reimbursement under the Program for the period August 31, 2004, through August 30,
2006, were allowable, allocable, and reasonable.

SUMMARY OF FINDINGS

Of the $31.5 million that the State agency claimed for reimbursement for the period August
31, 2004, through August 30, 2006, $31 million was allowable, allocable, and reasonable.
However, the State agency claimed $529,977 in expenses for budget years 2005 ($98,893)
and 2006 ($431,084) that were not allowable:

   •   $344,350 for goods and services that did not benefit the budget years in which they
       were expended ($98,893 for 2005 and $245,457 for 2006);

   •   $184,223 in budget year 2006 obligations that were not liquidated within required
       timeframes; and

   •   $1,404 in budget year 2006 indirect costs incorrectly computed.

The State agency claimed these unallowable expenses because it did not have adequate
policies and procedures to ensure that costs claimed complied with applicable laws,
regulations, and program guidance.

In addition, a subrecipient earned interest totaling $40,423 on program funds and did not
remit that amount to CDC as required. Neither the subrecipient nor the State agency was
aware ofthe requirement to remit interest earned on advances of Federal funds.




                                              1
RECOMMENDATIONS

We recommend that the State agency:

   •   refund $529,977 for unallowable expenses claimed for budget years 2005 and 2006;

   •   refund $40,423 for interest earned on program funds as of May 1, 2007, as well as any
       additional interest earned since that date; and

   •   develop adequate policies and procedures to ensure that costs claimed for
       reimbursement comply with applicable laws, regulations, and program guidance and
       that interest is properly remitted to the Federal Government.

STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE

In written comments on our draft report, the State agency agreed to refund all interest earned
on advances to a subrecipient and $1,404 in budget year 2006 indirect costs charged in error.
The State agency did not agree with our findings that it: (1) paid $344,350 during budget
years 2005 and 2006 for goods and services that benefited future budget years and (2) paid
$184,223 in budget year 2006 obligations that were not liquidated within required timeframes.
The State agency outlined three primary reasons it believes our findings were incorrect.
However, nothing in the State's comments caused us to change our recommendations.




                                              11
                               TABLE OF CONTENTS



INTRODUCTION                                                               1

  BACKGROUND                                                               1
    Preparedness for Bioterrorism and Other Public Health Emergencies      1
    Alabama Program Funding                                                1

  OBJECTIVE, SCOPE, AND METHODOLOGY.                                       2
    Objective                                                              2
    Scope                                                                  2
    Methodology                                                            2

FINDINGS AND RECOMMENDATIONS                                               3

  COSTS THAT DID NOT BENEFIT BUDGET YEARS 2005 AND 2006                    4
    Costs Not Claimed for Appropriate Funding Period                       4

  UNLIQUIDATED OBLIGATIONS                                                 5
    Obligations Not Liquidated Within Required Timeframes                  5

  INDIRECT COSTS                                                           5
     Unallowable Subrecipient Indirect Costs                               5

  INTEREST EARNED ON PROGRAM FUNDS                                         6
     Interest Not Remitted to Centers for Disease Control and Prevention   6

  RECOMMENDATIONS                                                          6

  STATE AGENCY COMMENTS                                                    7

  OFFICE OF INSPECTOR GENERAL RESPONSE                                     7

APPENDIX

  STATE AGENCY COMMENTS




                                           111
                                    INTRODUCTION

BACKGROUND

Preparedness for Bioterrorism and Other Public Health Emergencies

The Centers for Disease Control and Prevention (CDC) provides funds to State and major
local health departments to improve preparedness and response capabilities for bioterrorism
and other public health emergencies. From August 31,1999, to August 30, 2005, CDC
provided this funding through the Public Health Preparedness and Response for Bioterrorism
Program. Since August 31, 2005, CDC has provided funding through the Public Health
Emergency Preparedness Program. This program covered a 5-year project period, with the
first budget year covering August 31,2005, to August 30, 2006.

The Public Health Preparedness and Response for Bioterrorism Program was authorized
under sections 301(a), 317(k)(1)(2), and 319 of the Public Health Service Act (42 U.S.C. §§
241(a), 247b(k)(1)(2), and 247d), and the Public Health Emergency Preparedness Program
was authorized by section 319C of the Public Health Service Act (42 U.S.C. § 247d-3). In
this report, we refer to these two programs collectively as "the Program."

CDC issues Notices of Cooperative Agreement to awardees to set forth the approved budget
as well as the terms and conditions of the individual awards. To monitor the expenditure of
these funds, CDC requires awardees to submit financial status reports (FSR) showing the
amounts expended, obligated, and unobligated.

Alabama Program Funding

In Alabama, the Department of Public Health (State agency) administers the Program and
distributes funds to subrecipients to carry out program objectives. For budget years 2005 and
2006 (August 31, 2004, through August 30, 2005, and August 31, 2005, through August 30,
2006, respectively), the State agency was awarded a total of $31.6 million and claimed
expenditures of $31.5 million. Table 1 below summarizes the funding and expended amounts
for each period.

                        Table 1: Awarded and Expended Amounts

          Budget Year          Budget Period           Awarded         Expended
              2005         08/31/2004-08/30/2005      $14,152,078     $14,152,078
              2006         08/31/2005-08/30/2006      $17,420,011     $17,336,269

                                    Total             $31,572,089     $31,488,347




                                              1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of our audit was to determine whether costs the State agency claimed for
reimbursement under the Program for the period August 31, 2004, through August 30, 2006,
were allowable, allocable, and reasonable.

Scope

Our audit covered claimed costs of $31.5 million for program activities during the 2-year
period August 31,2004, through August 30, 2006 (budget years 2005 and 2006).

We did not review the overall internal control structure of the State agency or its
subrecipients. We limited our review of internal controls to the following: (1) obtaining an
understanding of the State agency's and selected subrecipient's procedures to account for
program funds and (2) obtaining an understanding of the State agency's subrecipient
monitoring procedures.

We also limited our review to nonstatistical samples of the expenses the State agency and two
of its subrecipients, the Jefferson County Department of Health (Jefferson County) and the
Mobile County Health Department (Mobile County), charged to the Program. Table 2 below
summarizes the total expenditures and the samples selected at the respective entities.

                         Table 2: Total and Sampled Expenditures

               Type of             Total Dollar                      Dollar Value of
            Expenditure               Value         Sample Size          Sample
        State Expenditures            $31,488,347           127             $9,211,297
        Jefferson County
        Expenditures                    $402,529              121             $323,767
        Mobile County
        Expenditures                    $316,812               33               $62,311

We conducted our fieldwork at State agency offices in Montgomery, Alabama, and at
Jefferson County Department of Health offices in Birmingham, Alabama.

Methodology

To accomplish our objective, we:

    •   reviewed applicable Federal and State laws, regulations, and program guidance;

    •   reviewed State agency and subrecipient accounting procedures and the State agency's
        monitoring of subrecipients;




                                               2
    •   tested FSRs for completeness and accuracy and reconciled the amounts reported on
        FSRs to the accounting records and Notices of Cooperative Agreement;

    •   verified that the indirect cost rate used was in accordance with the State agency's
        federally approved indirect cost rate agreement and that the rate was applied to the
        appropriate base;

    •   interviewed officials and program employees from the Alabama Department of Public
        Health, Center for Emergency Preparedness and the Alabama State Examiners of
        Public Accounts;

    •   reviewed positions funded by the Program for evidence of supplanting; 1

    •   selected and tested non-statistical samples of expenditures to determine whether the
        State agency and subrecipients expended program funds for reasonable, necessary,
        allowable, and allocable costs; and

    •   reviewed the subrecipients' procedures to account for funds expended.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objective.

                            FINDINGS AND RECOMMENDATIONS

Of the $31.5 million the State agency claimed for reimbursement for the period August 31,
2004, through August 30, 2006, $31 million was allowable, allocable, and reasonable.
However, the State agency claimed $529,977 in expenses for budget years 2005 ($98,893)
and 2006 ($431,084) that were not allowable:

    •   $344,350 in goods and services that did not benefit the budget years in which they
        were expended ($98,893 for 2005 and $245,457 for 2006);

    •   $184,223 in budget year 2006 obligations that were not liquidated within required
        timeframes; and

    •   $1,404 in budget year 2006 indirect costs incorrectly computed.

The State agency claimed these unallowable expenses because it did not have adequate
policies and procedures to ensure that costs claimed complied with applicable laws,
regulations, and program guidance.


lprogram funds were meant to augment current funding and not to replace or supplant any other Federal, State or
local funds provided for these activities (Section 319C-l(j)(2) of the Public Health Service Act [42 U.S.C. §
247d-3a]).



                                                       3
In addition, a subrecipient earned interest totaling $40,423 on program funds and did not
remit that amount to CDC as required. Neither the subrecipient nor the State agency was
aware ofthe requirement to remit interest earned on advances of Federal funds.

COSTS THAT DID NOT BENEFIT BUDGET YEARS 2005 AND 2006

Federal regulations (2 CFR § 225, Appendix A, section C (formerly OMB Circular A-87»
contain principles pertaining to State and local governments. Section C.1.b states that costs
must "... be allocable to Federal awards under the provisions of2 CFR part 225" and section
C.3.a states that "[a] cost is allocable to a particular cost objective if the goods or services
involved are chargeable or assignable to such cost objective in accordance with relative
benefits received."

Pursuant to 45 CFR § 92.23(a): "Where a funding period is specified, a grantee may charge
to the award only costs resulting from obligations of the funding period unless carryover of
unobligated balances is permitted, in which case the carryover balances may be charged for
costs resulting from obligations of the subsequent funding period" (the funding period in
budget years 2005 and 2006 each covered 12 months).

Costs Not Claimed for Appropriate Funding Period

The State agency paid $344,350 during budget years 2005 and 2006 ($98,893 for budget year
2005 and $245,457 for budget year 2006) for goods and services that benefited future budget
years. Because the State agency received no benefits during the period against which they
claimed these expenses, the expenses were not allocable to budget years 2005 and 2006 and
were therefore not allowable.

The $344,350 included $164,453 the State agency paid to the Alabama Public Health Care
Authority (HCA), a public corporation organized under Alabama State law. Some ofthe
goods and services HCA purchased (software licenses and maintenance agreements) benefited
periods after budget year 2006, against which they were claimed.

The State agency paid the remaining $179,897 directly to other providers for goods and
services that were similarly not allocable to the budget years charged because the purchases
were for goods and services that benefited future budget years:

    •   $98,893 was claimed as an expense in budget year 2005 for software and computer
        maintenance to be provided after the end of budget year 2005 and

    •   $81,004 was claimed as an expense in budget year 2006 for maintenance to be
        provided after the end of budget year 2006.

Regulations require that expenses claimed by a grantee in any given period must be for goods
and services that benefit the same period. Alternatively, if awarded funds cannot be spent for
benefits received in the same period, grantees may request permission to carryover funds to
the subsequent budget year. The State agency did not request permission to carryover these




                                                4
budget year 2005 and 2006 funds but, instead, expended these funds for periods during which
benefits were not received.

The State agency claimed these unallowable program expenses because of its practices of
advancing (and reporting as expenditures) funds to HCA before they were actually needed
and prepaying certain other expenses for future periods. State agency officials said that they
claimed expenses on a cash basis and, accordingly, reported expenses as they were incurred.
These practices, however, did not result in costs being claimed in accordance with Federal
regulations that require costs to benefit the budget period against which they are charged.

UNLIQUIDATED OBLIGATIONS

Pursuant to 45 CFR § 92.23(b), "A grantee must liquidate all obligations incurred under the
award not later than 90 days after the end of the funding period."

Obligations Not Liquidated Within Required Timeframes

HCA did not liquidate $184,223 in obligations for budget year 2006 within 90 days after the
end ofthe budget year. Accordingly, these amounts are not allowable expenses. This
occurred because the State agency advanced these funds to HCA, reported the advance as an
expenditure, and did not monitor HCA to ensure that the expenditures were in accordance
with Federal regulations.

INDIRECT COSTS

Pursuant to 2 CFR § 225 (formerly OMB Circular A-87) Appendix A, section F:

       Indirect costs are those: Incurred for a common or joint purpose
       benefiting more than one cost objective, and not readily assignable to the
       cost objectives specifically benefited .... Indirect cost pools should be
       distributed to benefited cost objectives on bases that will produce an
       equitable result in consideration of relative benefits derived.

Pursuant to 45 CFR § 92.40(a): "Grantees must monitor grant and subgrant supported
activities to assure compliance with applicable Federal requirements ...."

Unallowable Subrecipient Indirect Costs

Mobile County, another subrecipient, overstated indirect costs by $1,404. Indirect costs for
Mobile County should have been calculated by applying the same indirect cost rate the State
agency used (21.7 percent) to a base of salaries and wages. However, when computing its
indirect cost reimbursement, Mobile County applied this rate to both contract costs and
salaries and wages. The rate should have been applied to only salaries and wages. As a
result, Mobile County overstated the indirect cost expense reported to the State agency.

The unallowable costs occurred because the State agency did not have adequate policies and
procedures to ensure that costs claimed for reimbursement were in compliance with
applicable Federal regulations.


                                               5
INTEREST EARNED ON PROGRAM FUNDS

Federal regulations (45 CFR § 92.21(c)) allow for advances but stipulate that grantees or
subgrantees have the "... ability to maintain procedures to minimize the time elapsing
between the transfer of funds and their disbursement." In addition, pursuant to § 92.21(i), "..
· grantees and subgrantees shall promptly, but at least quarterly, remit interest earned on
advances to the Federal agency."

Federal regulations (45 CFR § 74.22(b)(1)(i)) allow for advances but stipulate that recipients
"... maintain written procedures that minimize the time elapsing between the transfer of
funds and disbursement by the recipient." Further regulations (§ 74.22(e)) stipulate that
"[r]eimbursement is the preferred method when the requirements in paragraph (b) ... cannot
be met."

Interest Not Remitted to the Centers for Disease Control and Prevention

The State agency advanced $2,140,988 of2006 program funds to RCA before the funds were
needed. RCA did not disburse these funds timely and, as a result, earned interest totaling
$40,423 on these funds. RCA should have remitted this interest to the State agency, and the
State agency should have remitted the interest to CDC.

State agency and RCA officials said that they were not aware that interest should be remitted
to CDC.

RECOMMENDATIONS

We recommend that the State agency:

• refund $529,977 for unallowable expenses claimed for budget years 2005 and 2006;

• refund $40,423 for interest earned on program funds as of May 1, 2007, as well as any
  additional interest earned since that date; and

• develop adequate policies and procedures to ensure that costs claimed for reimbursement
  comply with applicable laws, regulations, and program guidance and that interest is
  properly remitted to the Federal Government.




                                               6
STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed to refund all interest earned
on advances to the HCA and $1,404 in budget year 2006 indirect costs that the Mobile County
Health Department charged in error. The State agency did not agree with our findings that it:
(1) paid $344,350 during budget years 2005 and 2006 for goods and services that benefited
future budget years and (2) paid $184,223 in budget year 2006 obligations that were not
liquidated within required timeframes. The State agency outlined three primary reasons it
believes our findings were incorrect:

First, the regulation the Office ofInspector General (OIG) cited (2 CFR § 225, Appendix A,
Section C.3.a) does not apply. According to the State agency, the regulation does not
reference a time frame or require that a cost benefit a particular period. The State agency also
said that Section C.3.a. applies to allocated costs while the costs in question are direct costs.

Second, OIG's interpretation of the regulation is contrary to commonly accepted accounting
principles. The State agency said it has the option to operate on either a cash or accrual basis,
and it opted to operate on a cash basis. The State agency believes all the questioned
transactions were properly disbursed, expended, and reported. The State agency also said that
under State law and practice, HCA had up to three years to complete their work plan.

Third, OIG's interpretation of the regulation is contrary to correct practice in a cash basis
system. The State agency said that charging maintenance agreements and software licenses as
expended to the grant period is appropriate in a cash system and is the required State practice.
The State agency also maintained that it was required to pay for software licenses and
maintenance agreements in advance to meet standards required by the grant objectives.

The State agency also said that in apparent recognition of the confusion created by OIG's
interpretation of the regulation, CDC inserted a new requirement in the grant award document
entitled "Special Terms and Conditions." According to the State agency, the new special
terms and conditions impose the same requirements on subrecipients that they impose on
grant recipients, and the State agency would comply with these new requirements.

OFFICE OF INSPECTOR GENERAL RESPONSE

We maintain that 2 CFR § 225, Appendix A, section C.3.a., applies to the costs in question.
Section C.3.a. applies to costs in general and not just indirect costs. Section C contains basic
guidelines applicable to all costs, both direct and indirect, whereas Appendix C, which we did
not cite, contains specific guidelines for indirect costs. Section C.3.a states that "[a] cost is
allocable to a particular cost objective ifthe goods or services involved are chargeable or
assignable to such cost objective in accordance with relative benefits received." Furthermore,
45 CFR § 92.23(a) requires that "[w]here a funding period is specified, a"grantee may charge
to the award only costs resulting from obligations of the funding period unless carryover of
unobligated balances is permitted, in which case the carryover balances may be charged for
costs resulting from obligations ofthe subsequent funding period." The HHS Departmental
Appeals Board (DAB) has consistently held that "expenditures that are incurred outside the
grant term are not allocable to the grant activities for which the grant was originally



                                                7
awarded." (Huron Potawatomi, Inc., DAB 1889 at p. 3 (2003) (citing earlier DAB cases); see
also Arlington Community Action Program, Inc., DAB 2141 at p. 2 (2008».

The funding period for each of the budget years 2005 and 2006 covered 12 months and the
costs we questioned did not benefit the budget years in which they were charged.

Neither we nor the grant regulations prescribe a particular method of accounting - cash basis
or otherwise. The State agency elected to use cash accounting and claimed expenses at the
time cash was disbursed. While we do not question the State agency's use of cash
accounting, the State agency is still obligated to adhere to Federal regulations that require
expenses be charged based on the relative benefits received. The State agency's practice of
claiming prepayments as expenses under cash accounting does not satisfy this requirement
because some of the benefits from expenses will not be realized until later grant periods.
Alternatively, the State agency should have carried funds over and expensed them within the
approved budget periods.

The Notice of Cooperative Agreement gave the State agency a 12-month period to expend
grant funds. When the State agency transferred the funds to HCA, the funds were still
considered Federal grant funds and, as such, should have been spent within the time frame
specified in the Notice of Cooperative Agreement. Even though State law may have given
HCA three years to complete their work, the State agency's funding ofHCA activities should
have been more precisely matched to HCA's needs over the CDC-approved budget periods.

Regulations already existed at the time of our audit that imposed the same requirements on
subrecipients as primary recipients (45 CFR §§ 74.5 and 92.4). Furthermore, the Notice of
Cooperative Agreement includes by reference the "Public Health Service Grants Policy
Statement.,,2 Pursuant to the "Subgrantees and Contractors" section of the Public Health
Service Grants Policy Statement:

        The information contained in this publication applies principally to the primary
        recipients of PHS funds. Where subgrants are authorized by the awarding
        office through regulations, program announcements, or through the approval of
        the grant application, the information contained in this publication also applies
        to subgrantees. PHS expects grantees to use an objective system for making
        subawards that is at least as rigorous as the recipient's procurement system in
        order to help ensure proper accountability of funds and satisfactory
        performance under the subaward.

We continue to recommend that the State agency refund $529,977 for unallowable expenses
claimed for budget years 2005 and 2006.




2The PHS Grants Policy Statement was applicable to CDC grants until October 1, 2006, when it was superseded
by the HHS Grants Policy Statement.



                                                     8
APPENDIX
                                                                                                     APPENDIX
                                                                                                      Page 1 of4



~---~~~-~"._--~------




                           STATE OF ALABAMA DEPARTMENT OF

                           PUBLIC HEALTH
                                          Donald E. Williamson, MD
                                                State Health Officer

                                                August 19, 2008


   Mr. Peter J. Barbera
   Regional Inspector General for Audit Services
   Department of Health and Human Services
   Region IV
   61 Forsyth Street, S.W.
   Suite 3T41
   Atlanta, Georgia 30303

   RE: OIG Report Number A-04-07-01037

   Dear Mr. Barbera:

   This is in response to your letter of July 22, 2008, transmitting a draft report regarding
   allowability of costs claimed under Alabama's Bioterrorism and Emergency Preparedness
   Programs for the period August 31, 2004 through August 30, 2006.

   Audit Findings and Recommendations
   The state of Alabama claimed $31.5 million for reimbursement for the period. Of that amount,
   your audit found $529,977 in expenses that were not allowable:

   •   $344,350 that did not benefit the budget years in which they were expended;
   •   $184,223 in budget year 2006 obligations that were not liquidated within required time
       frames and;
   •   $1,404 in budget year 2006 indirect costs incorrectly computed; and
   •   A subrecipient earned interest totaling $40,423 on program funds.

                 Summary of Questioned Charges
                                                                       State      APHCA      Total
                 Time Frame Disallowances
                 SOftware licenses and maintenance                  179,897      164,452   344,349
                 agreements
                 Facility Improvements                                           184,224   184,224
                Subtotal                                            179,897      348,676   528,573
                 Indirect Cost Error                                  1,404                  1,404
                 Interest Earnings                                                40,423    40,423
                 Grand Total ofQuestioned Charges                   181,301      389,099   570,400

                                The RSA Tower 0 201 Monroe Street 0 Montgomery, AL 36104
                                      P.O. Box 303017 0 Montgomery, At 36130·3017
                                                                                           APPENDIX
                                                                                            Page 2 of4




Mr. Peter Barbera
August 19,2008
Page 2


In response to these findings, you recommend that the Alabama Department of Public Health
(ADPH):

•   Refund $529,977 for unallowable expenses.
•   Refund $40,423 for interest earned of program funds.

The Department is also cited for failure to adequately monitor subreclpient related policies and
procedures.

Alabama's Response

The Inspector General had adverse findings in three areas: expenditure of funds outside of
allowable time frames; an indirect cost computation error; and interest earnings. The
Department agrees with the indirect cost and interest earned findings but must take strong
exception to the time frame disallowances finding. Each is discussed below.

Time Frame Disallowances
Finding:
• $344,350 that did not benefit the budget years in which they were expended; and
• $184,223 in budget year 2006 obligations that were not liquidated within required time
   frames.

Response: The Inspector General takes the position that the questioned funds either were not
expended during the grant period or did not benefit the grant period and therefore must be
refunded. Alabama must respectfully disagree for the follOWing reasons:

•   The regulation cited does not apply. 2 CFR Section 225, Appendix A, Section C. 3. a. is cited
    to support the assertion that cost must benefit the period of the grant. ADPH disagrees
  with this interpretation. The regulation states that a "cost is allocable to a particular cost
  objective." It does not reference a time frame or require that a cost benefit a particular
  period. Also, this section applies to allocated costs. The questioned costs are direct costs.
  As such we cannot understand how this regulation can be properly applied to this situation.
• It is contrary to commonly accepted accounting principles. The state of Alabama has the
  option to operate on a cash or accrual basis. Alabama chose the cash option. In a cash
  system, funds are expended when disbursed. All ofthe questioned transactions were
  properly disbursed, expended, and reported. Under state law and practice, the Alabama
  Public Health Care Authority (APHCA) then had up to three years to complete their work
  plan.




                                              2
                                                                                          APPENDIX
                                                                                           Page 3 of4



                                                                            --,--~~~~---.--,c--     ---,.   .._....

Mr. Peter Barbera
August 19, 2008
Page 3


•   It is contrary to correct practice in a cash basis system. Charging maintenance agreements
    and software licenses as expended to the grant period is appropriate In a cash system and is
    the required state practice. Software license and maintenance agreements must be fully
    paid in advance and the services were req uired for the necessary communications and
    security and reliability standards required by the grant objectives.
•   It is unprecedented. The state's cash accounting basis procedures have never been
    questioned by state examiners, federal auditors, program auditors or any other auditor or
    examiner internal or external to the Department.
•   It is impractical to administer. Almost any purchase at any time during the course of a
    grant could result in Items that are not fully consumed or utilized during a particular grant
    period. Examples would be vaccines, drugs, equipment or other supplies. In many cases
    these do not "benefit the grant period," yet they are rightly not questioned.
•   It would have been impossible to achieve the federal grant's objectives. Application of this
    Interpretation would have rendered the state incapable of achieving the grant's objectives.
    For example, a key element of the grant work plan was implementation of a continuity of
    operations program. That program required the establishment of an alternate emergency
    operations center for the department that would maintain the department's capabilities for
    data, communications, and command in the event of an emergency that rendered its
    headquarters unusable. To achieve this goal, the Department utlilzed a sub recipient, the
    Alabama Public Health Care Authority. The APHCA duly provided this capability through a
    major renovation of a faclilty that involved emergency power, added data lines, cooling,
    servers, a fueling depot, and other major improvements. It would have been impossible to
    plan and implement these improvements during the grant period and the grant goals would
    not have been attained.
•   The sub-recipient's progress in meeting its work plan was monitored. The progress of the
    sub-recipient in the achievement of the work plan was monitored through regular meetings,
    reports and oversight by ADPH senior management. The Department was fully aware of the
    timeframe required to achieve the grant objectives and the sub-recipient's progress.
•    "Special terms" enforcing this interpretation were inserted in the new grant award. In
     apparent recognition of the confusion created by this interpretation, a new requirement
     has been inserted in the grant award entitled "Special Terms and Conditions". The new
     award now imposes the same requirements on sub-recipients that are imposed on grant
     recipients. The state will comply with this new requirement. However, the imposition of
     "special terms and conditions" would seem unnecessary if the proposed Inspector General's
     interpretation was clearly supported by existing regulations.




                                             3
                                                                                           APPENDIX
                                                                                            Page 4 of4




Mr. Peter Barbera
August 19, 2008
Page 4


Indirect Cost Error
Finding:
• $1,404 in budget year 2006 indirect costs incorrectly computed.

Response; The $1,404 in budget year 2006 indirect costs that was charged in error by the
Mobile County Health Department will be refunded, in full, immediately.

Interest Earnings
Finding:
• A subrecipient earned interest totaling $40,423 on program funds.

 Response: Alabama agrees to refund all interest earned on advances to the APHCA. The
-earnings were sequestered pending audit instructions and will be refunded, in full,
 immediately.

We hereby request that the draft recommendation for repayment of the time frame related
exceptions and the comments on sub-recipient monitoring be removed.

In conclusion, we appreciate the professionalism and diligence of the audit staff that did the
field work on this project. Although there are points on which we disagree, the audit staff was
professional in working with the state and sub-recipient. We also appreciate the opportunity to
provide our response and hope the state and CDC can reach an amicable agreement as to the
settlement of the questioned cost.




                                             onald E. Williamson, MD
                                            State Health Officer

DEW/red




                                            4
